DOE/IG-0490




         AUDIT
        REPORT




                                CONTAINERS SUITABLE FOR
                                SHIPPING FISSILE MATERIAL




                                          NOVEMBER 2000




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                                  November 28, 2000


MEMORANDUM FOR THE SECRETARY

FROM:           Gregory H. Friedman (Signed)
                Inspector General

SUBJECT:        INFORMATION: Audit Report on "Containers Suitable for Shipping Fissile Material"

BACKGROUND

As a result of its weapons program activities, the Department of Energy (Department) has a significant inventory of
surplus fissile materials. Within the Department, the National Nuclear Security Administration and the Office of
Environmental Management are responsible for managing this inventory, including its protection and disposal. To
accomplish these objectives, the Department has established a program to ship the fissile materials, including surplus
pits and plutonium metals, oxides, fluorides, and residues, from several Department facilities to a final designated
disposition location. The various fissile materials are to be shipped in Type B containers certified by the Department
or the Nuclear Regulatory Commission, or under an exemption as duly granted by the appropriate Federal agency.
The objective of this audit was to determine whether the Department has containers suitable for shipping its surplus
fissile material.

RESULTS OF AUDIT

In January 2000, the Department announced that the Savannah River Site had been selected as the site for plutonium
disposition facilities. This decision confirmed the need to ship surplus pits in large quantities from the Pantex Plant
to Savannah River. Although the Department had some suitable shipping containers, it did not have a sufficient
number to meet its anticipated mission of shipping surplus pits. Further, the Department had not certified containers
needed to ship the different types of surplus fissile materials from the Rocky Flats Environmental Technology Site to
the Savannah River Site. Based on the results of the audit, it is our view that these conditions exist because container
activities at the Department were not appropriately managed and integrated over the past eight years. Specifically,
there was no central source of container information for designers, users, and regulators; and, a formal needs
assessment, to identify and prioritize emerging shipping container needs, was not completed. As a result, significant
amounts of surplus fissile material cannot be shipped even though the Department had spent or committed to spend
about $18.5 million related to its container activities.

We recognize the complexity of the policy and technology issues related to packaging and shipping surplus fissile
materials. However, given the history of the Department's container activities, including the expenditure of millions
of dollars to date and, the likelihood of significant additional expenditures, the Department should improve
coordination of its container activities to ensure there is an adequate number of containers to meet the anticipated
shipping rates. Therefore, the report includes recommendations for actions designed to better coordinate the
Department's container activities.

MANAGEMENT REACTION

Management concurred and proposed actions to address the recommendations.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Under Secretary for Nuclear Security/Administrator for Nuclear Security
CONTAINERS SUITABLE FOR SHIPPING FISSILE MATERIAL

TABLE OF
CONTENTS


                Overview

                Introduction and Objective .............................................. 1


                Conclusions and Observations ....................................... 1


                Shipping Containers

                Details of Finding ............................................................ 3


                Recommendations and Comments ................................. 7


                Appendix

                Scope and Methodology ............................................... 11
Overview
INTRODUCTION      Since the end of the Cold War, the United States has not produced any
AND OBJECTIVE     nuclear weapons. Instead, it is dismantling large numbers of weapons as
                  well as closing some production sites. Consequently, the Department
                  of Energy (DOE) has to dispose of surplus weapons-related fissile
                  material, such as pits and plutonium metals, oxides, fluorides, and
                  residues, that is, the byproducts of weapons production (surplus fissile
                  materials). These surplus fissile materials are located at several DOE
                  sites. For example, pits are located primarily at the Pantex Plant
                  (Pantex), and other surplus fissile materials are located throughout the
                  complex. DOE plans to ship much of its surplus fissile materials to
                  various locations for final disposition.

                  To achieve final disposition, DOE must have certified Type B
                  containers (containers) for shipping surplus fissile material. The
                  offices involved in identifying container needs and certifying
                  containers (container activities) are DOE's Office of Environmental
                  Management (EM) and the National Nuclear Security Administration's1
                  (NNSA) Offices of Defense Programs (DP) and Defense Nuclear
                  Nonproliferation (NN). The objective of this audit was to determine if
                  DOE has containers suitable for shipping its surplus fissile material.

CONCLUSIONS AND   DOE did not have sufficient numbers of containers ready to ship
OBSERVATIONS      all the different types of its surplus fissile material from various
                  sites to the Savannah River Site (Savannah River). This occurred
                  because DOE did not effectively integrate and manage its
                  shipping container activities. Since Fiscal Year (FY) 1998, DOE
                  has spent or committed to spend about $18.5 million related to its
                  container activities, but still does not have sufficient numbers of
                  containers to ship surplus fissile materials to Savannah River.

                  Other container coordination problems were identified in an October
                  1995 report issued by the Office of Inspector General entitled The
                  Department of Energy's Transportation Accident Resistant Container
                  Program, DOE/IG-0380. The audit concluded that DOE spent
                  $29 million to build containers for the Air Force that were not wanted.
                  This occurred because DOE did not coordinate the need for the
                  containers with the user prior to incurring production costs.



                  ——————————————
                  1
                   The National Defense Authorization Act for Fiscal Year 2000, Public Law 106-65,
                  established a semi-autonomous agency within DOE, the National Nuclear Security
                  Administration (NNSA). The NNSA began operations March 1, 2000. It is
                  comprised of the former DOE Offices of Defense Programs, Nonproliferation and
                  National Security, Fissile Materials Disposition, and Naval Reactors.

Page 1                                                        Introduction and Objective/
                                                              Conclusions and Observations
         In June 2000, DOE recognized the need for a centralized and
         coordinated approach in its Integrated Nuclear Materials Management
         Plan. This Plan stated that "transportation planning must be
         coordinated across programs and sites," and that "increased integration
         is needed for the design, certification, procurement, and management of
         shipping containers."

         In our opinion, the matters discussed in this report should be considered
         by management when preparing its yearend assurance memorandum on
         internal controls.




                                       ______(Signed)_________
                                       Office of Inspector General




Page 2                                          Conclusions and Observations
Shipping Containers
Container Activities   DOE's weapon-related container activities have not produced
                       sufficient numbers of a container suitable for shipping surplus pits
                       from Pantex to Savannah River. In addition, EM activities have
                       not provided a container that is certified to ship all the different
                       types of the other surplus fissile material from the Rocky Flats
                       Environmental Technology Site (Rocky Flats) to Savannah River.

                                                 Pit Containers

                       DOE does not have sufficient numbers of suitable shipping containers
                       to meet the anticipated shipping rates of surplus pits from Pantex to
                       Savannah River. In 1992, DOE identified the need for a shipping and
                       storage container for its pits that would provide a non-corrosive
                       environment for storage while simultaneously serving as a certified
                       shipping container. The container selected to meet this need was the
                       AT-400A. Initially, DOE anticipated that thousands of pits would be
                       packaged in these containers between 1995 and 2000. In 1998, after
                       encountering problems with the design and high costs of the container,
                       DOE terminated the effort. The General Accounting Office (GAO)
                       reported on these problems in Progress and Problems in Managing
                       Plutonium, GAO/RCED-98-68, April 1998. The report stated that after
                       5 years and nearly $50 million in cost, DOE could only package 5
                       percent of its pits in the containers. In fact, DOE only packaged 18 of
                       its pits in AT-400A containers before terminating the project.

                       To ensure the timely and cost-effective resolution of the wide range of
                       issues surrounding pit storage, DOE prepared and implemented the
                       Integrated Pit Storage Program Plan. This Plan, dated October 1998,
                       evaluated several options, but to also be conservative, it assumed that
                       all of the surplus pits would be shipped to a disassembly and conversion
                       facility at a location other than Pantex. As a result of the life cycle
                       analysis, DOE ascertained that the implementation of a sealed insert
                       option coupled with the acquisition of a new shipping container would
                       be significantly faster and more cost-effective than completion of
                       the AT-400A program. Therefore, DOE stopped production of the
                       AT-400A and decided to use the newly designed and approved AL-R8
                       Sealed Insert (AL-R8/SI) storage container described in the Plan. This
                       single purpose container would be used to store pits at Pantex but could
                       not be used for shipping.

                       DOE is currently packaging pits in the single-purpose AL-R8/SI
                       containers, an activity that will not be complete until 2004. DOE
                       originally anticipated having all pits packaged in a dual-purpose
                       container by 2000, yet management stated that it did not have a mission


Page 3                                                                    Details of Finding
         to ship pits to a disassembly and conversion facility until January 2000.
         Management, however, had a staff level working group that was formed
         in May 1999 to assist Headquarters in the evaluation of pit container
         alternatives and selection of a generic pit-shipping configuration. This
         working group issued its final report in October 1999 and now, DOE
         plans to have a shipping container for pits designed, approved, and
         ready for use by 2005.

                             Other Fissile Material Containers

         Likewise, DOE does not have suitable shipping containers to transport
         some of its surplus oxides, fluorides, and residues from Rocky Flats to
         Savannah River. DOE had planned to use two shipping containers, the
         SAFKEG and the 9975, to ship its surplus fissile material. But neither
         of these containers had the necessary certification for shipment of these
         materials.

         DOE decided to use the DP sponsored SAFKEG container for the
         shipment of oxides. Certification of this container was requested in
         1994, a process EM stated should take two years. The container,
         however, was still not certified at the time of our audit. Thus, it could
         not be used to ship these materials to Savannah River.

         Rocky Flats has also experienced certification problems with the EM
         sponsored 9975 container. This container, developed at Savannah
         River, was not certified to ship residues. In order to use this container,
         DOE had to have it certified for this purpose. Rocky Flats assumed that
         certification would be obtained by August 1998, and based on this
         assumption, Rocky Flats began to prepare its residues for shipment in
         the 9975 container. However, the Savannah River Operations Office
         did not prepare the application for certification until August 1999.
         Further, the application was never submitted. This precluded the
         possibility of obtaining certification to ship the residues as planned.

         In September 1999, after considering other factors in addition to the
         shipping container certification issue, DOE decided to send the Rocky
         Flats residues to the Waste Isolation Pilot Plant (WIPP). This change
         required that the material be blended in order to meet WIPP waste
         acceptance criteria, repackaged, and placed into drums that fit into the
         TRUPACT-II container. Similarly, DOE is considering blending its
         fluorides so that they also can be shipped to WIPP. This is being
         considered at least in part because Rocky Flats does not have a certified
         shipping container for these fluorides. Again, DOE did not successfully
         achieve its goals because no specific office was responsible for assuring
         the certification of containers.

Page 4                                                        Details of Finding
                       In discussion of our audit, management stated that during the past few
                       years Rocky Flats revised its priority to focus on getting 9975 shipping
                       containers certified for the shipment of oxides instead of SAFKEG
                       containers. According to management, the current projected schedule is
                       to have a certificate issued for oxides in April 2001. Management
                       further stated that technical issues, as well as a lack of coordination,
                       contributed to the certification problems.

Guidance               While detailed procedures do not exist within DOE covering container
                       activities, various documents including Office of Management and
                       Budget (OMB) Circulars and DOE Orders exist and provide useful
                       programmatic guidance. For instance, OMB Circular A-123,
                       Management Accountability and Control, states that government
                       resources are to be used efficiently and effectively to achieve intended
                       program results. In this case, containers are needed to ship fissile
                       materials for final disposition and storing such materials in a safe
                       manner. Thus, container activities would be effective when they had
                       produced usable, certified containers to support the plutonium
                       disposition mission of DOE.

                       Additionally, DOE Order 430.1A, Life Cycle Asset Management, states
                       effective management practices must include requirements such as
                       identification of project technical and organizational interfaces, as well
                       as integration with other projects and activities. Therefore, container
                       activities should be managed in a way to promote integration and
                       coordination with other DOE projects like site closure and surplus
                       material disposition in order to realize effective management practices.

                       DOE Order 460.2, Departmental Materials Transportation and
                       Packaging Management, establishes DOE policies and requirements for
                       materials transportation and container operations. This Order requires
                       that information on various aspects of containers such as those in
                       inventory, new container needs, and containers under development are
                       included in the DOE Packaging Management Plan. Further, the Order
                       requires that formal needs assessments be performed to identify and
                       prioritize emerging transportation and container needs, and that a
                       catalog of available containers be maintained.

Management Of          Container activities were not successful because DOE did not
Container Activities   sufficiently integrate and manage its container activities. It did
                       not develop the DOE Packaging Management Plan required by DOE
                       Order 460.2, for its containers. This Plan could have centralized
                       information and facilitated integration to improve management of
                       DOE's container needs. DOE's field elements did not submit
                       information on all of the containers in inventory, new container needs,

Page 5                                                                     Details of Finding
         and containers under development. Further, DOE has not completed a
         formal needs assessment on all containers. This assessment would have
         identified and prioritized emerging shipping container needs. DOE also
         has not established a catalog of containers. Thus, there is no central
         source of container information for designers, users, and regulators.

         Most recently, a lack of coordination can be seen in the PC-2 container
         effort undertaken by Los Alamos National Laboratory (Los Alamos).
         Its efforts, which had not been coordinated with DOE, cost $171,000
         and progressed to the point of having a prototype. Since DOE had not
         authorized the project, it directed Los Alamos to stop work on the
         container.

         Problems with coordination were a direct result of not having an
         integrated approach to container activities. The offices involved in
         these activities fall under different organizations. During the audit, the
         need for a centralized approach was also recognized in DP's memo
         dated February 8, 2000, to the Manager of the Albuquerque Operations
         Office (Albuquerque). This memo pointed out that having a single
         manager responsible for shipping and storage requirements would result
         in management efficiencies for DP activities.

         The FY 2001 draft of the Stockpile Stewardship Plan echoed the same
         point about the need for management of container activities. It stated:

                "Currently there are numerous, unconnected
                container initiatives throughout the Department
                weapons complex. There is a need for a single
                container management plan to assure that funding
                allocation and use are not applied to misdirected,
                locally driven projects that possibly conflict with
                mission needs. Centralized management of
                shipping and storage containers for nuclear
                weapons and weapons components is necessary to
                assure an adequate supply for mission needs."

         The document went on to emphasize how EM, DP, and Nuclear
         Energy, Science and Technology (NE) should feed into an integrated
         container management plan that incorporates the container database
         currently used by DP.

         Further, the June 2000 Integrated Nuclear Materials Management Plan
         asserted that coordination was needed across programs and sites.



Page 6                                                       Details of Finding
                     This Plan also identified that increased integration is needed for the
                     design, certification, procurement, and management of shipping
                     containers DOE-wide.

Costs Of Container   As a result of not adequately integrating and managing its shipping
Activities           container activities, DOE has spent millions without having a shipping
                     container suitable for some of its surplus fissile materials. During FYs
                     1998 and 1999, subsequent to the GAO report, DOE spent $8.7 million
                     on the terminated AT-400A container. In addition, DOE will incur
                     costs of at least $9.8 million over the next two years to blend and
                     repackage residues for shipment to WIPP that were originally prepared
                     for shipment to Savannah River. Finally, DOE has not been able to
                     meet its objectives to acquire shipping containers to ship surplus fissile
                     material from Pantex and Rocky Flats to Savannah River.

                     Ultimately, these costs may be small in comparison to the costs DOE
                     could incur if Rocky Flats does not meet its closure deadline due to not
                     having sufficient certified Type B containers. Management asserted
                     there are numerous other programmatic activities that will also
                     influence DOE's ability to close Rocky Flats by 2006.

RECOMMENDATIONS      We recommend that the Under Secretary for the National Nuclear
                     Security Administration and the Under Secretary for Energy, Science
                     and Environment:

                     1. establish a more formal process within DOE for integrating
                        coordination of Type B container activities;
                     2. develop and implement the DOE Packaging Management Plan;
                     3. direct all field elements to provide information on containers in
                        inventory, new container needs, and containers under development
                        to the DOE centralized point of contact; and,
                     4. prioritize and coordinate Type B container certification needs
                        throughout DOE.

MANAGEMENT           Management concurred with the recommendations, and provided
REACTION             general comments on the report.

                     Recommendation 1. Management concurred and stated that it does
                     recognize the benefits of better integration among Headquarters
                     program offices and field elements. The proposed plan is that the
                     offices of EM, DP, NN, and NE are discussing these issues and
                     mapping a path forward for DOE integration of container activities. A
                     means of control of program office packaging and shipping activity



Page 7                                               Recommendations and Comments
                   interfaces is being developed by NNSA, EM, and NE through a
                   Memorandum of Agreement (MOA) as it relates to both classified
                   and unclassified shipments of nuclear material and radioactive waste,
                   including Type B shipments. Given the interfaces between the
                   multiple programs, the MOA will define the communication and issue-
                   resolution process to address integration concerns. The MOA will be
                   implemented by March 31, 2001.

                   Recommendation 2. Management concurred and stated that DP-20 has
                   tasked Albuquerque to develop an Integrated Container Management
                   Program Plan for packages requiring safe secure trailer transportation.
                   DP and EM will expand this Plan to include Type B shipping containers
                   to support the MOA. This Plan will be implemented by September 30,
                   2001.

                   Recommendation 3. Management concurred and stated that it has
                   initiated action to acquire and consolidate the information on all
                   certified Type B containers in the EM, NNSA, NE, the Nuclear
                   Regulatory Commission, and Department of Transportation inventory.
                   This will be completed by September 30, 2001, and made available, as
                   appropriate, on the internet.

                   Recommendation 4. Management concurred and stated that the process
                   being developed as part of the MOA is the mechanism that would most
                   appropriately provide for issues associated with certification and
                   container management to be raised to senior management for
                   resolution. DOE concurs that prioritization and coordination need to be
                   improved and is taking actions to achieve this by September 30, 2001.

AUDITOR COMMENTS   Based on management comments, we believe management's proposed
                   actions meet the intent of our recommendations.

ADDITIONAL         Management stated that the efforts in DP to address overall package
MANAGEMENT         needs are getting additional integration across the divide between
COMMENTS           NNSA and other DOE organizations. Many of the ad hoc activities for
                   assessing package needs and resources available have been formalized
                   by DP. DP-20 has created the DP Package Management Program.
                   The Nuclear Materials Stewardship Project Office in Albuquerque has
                   been assigned the lead for DP's Package Management Program. A
                   joint DP/EM package inventory data call was issued on August 22,
                   2000, which was the first official act of package management planning
                   coordinated by this office. This data call will provide inventory and
                   status information on all of DOE's Type B packages. The data will be
                   managed separately for NNSA and the rest of DOE because of


Page 8                                           Recommendations and Comments
         classification issues, but the data structures and requests for inventory
         numbers are the same. Package needs, the availability of shipping
         services, shipper/receiver site capabilities, and certification of new
         packages are all aspects of this effort. Details of DP's Package
         Management Plan are still evolving in the context of overall
         transportation planning. The goal of this integrated Transportation
         Safeguards System planning effort is to bring focus to the transportation
         infrastructure requirements when project plans are developed.

         In addition, for shipment of surplus pits, management stated that DOE
         recognized that the existing pit-shipping container would not be suitable
         for the plutonium disposition mission because the number of containers
         was insufficient to meet the anticipated shipping rates. About the time
         that Savannah River was designated as a preferred site for the Pit
         Disassembly and Conversion Facility, DOE initiated the effort for a
         new, surplus pit-shipping container. The goal of this initiative is to
         have the new surplus pit-shipping container certified in time to support
         surplus pit shipments from Pantex to Savannah River starting in 2005.

         Management further stated that the working group identified in the
         body of the report issued a systems analysis of potential options
         in anticipation of formalization of DOE decisions in the Surplus
         Plutonium Disposition Environmental Impact Statement. The purpose
         of the analysis was to understand the relative cost and risk of potential
         alternatives for surplus pit packaging and transportation. This systems
         analysis does not provide for a DOE decision on mission siting nor
         commit DOE to any design process.

         Management stated that the decision to ship residues to WIPP was
         based on factors in addition to the container certification issue. The life
         cycle cost for these residues strongly favors direct disposal at WIPP
         rather than shipment to Savannah River for processing and subsequent
         storage at Yucca Mountain in Nevada. Management also stated that the
         radiation exposure to workers was lower if the residues were shipped to
         WIPP instead of Savannah River. For similar reasons, management is
         considering shipment of its fluoride residues to WIPP as well.

         Management's comments stated that our assertion that the Integrated
         Nuclear Materials Management Plan identified that increased
         integration is needed for the design, certification, procurement, and
         management of shipping containers DOE-wide was not accurate.
         Instead, management's interpretation was that the Plan directed that
         packaging efforts be integrated across the complex.



Page 9                                   Recommendations and Comments
ADDITIONAL   Management's additional comments demonstrate that it has recognized
AUDITOR      a need for improved management of Type B container activities. For
COMMENTS     example, the data call of August 22, 2000, appears to be moving
             towards a more integrated and coordinated approach across the DOE
             complex.

             Further, management stated that until January 2000, it did not need to
             ship surplus pits from Pantex to Savannah River. However, it did spend
             considerable time and millions of dollars for a dual-purpose pit storage
             and shipping container starting in 1992. Thus, accepting this
             explanation, DOE expended funds for eight years before it had a
             mission to ship surplus pits.

             We did not audit the life cycle costs of the decision to ship residues to
             WIPP. Therefore, we cannot attest to the validity of management's
             assertion. The decision to ship to WIPP was made after residues had
             already been prepared for shipment to Savannah River in anticipation of
             certification of the 9975 container.

             Finally, our assertion regarding the Integrated Nuclear Materials
             Management Plan is based on direct language from the Plan.
             Furthermore, we could not find where the Plan directed integration
             across the complex.




Page 10                                     Recommendations and Comments
Appendix
SCOPE         We performed the audit from September 1999 to August 2000 at DOE
              Headquarters, Albuquerque, Rocky Flats Field Office (RFFO), and the
              Amarillo Area Office at Pantex. The scope was limited to containers
              suitable for shipping surplus fissile material. These containers are
              identified as Type B containers. We reviewed activities related to
              Type B pit shipping containers from 1992 through March 2000. We
              reviewed activities related to other Type B containers from September
              1999 through March 2000. Our review did not include shipments of
              surplus highly enriched uranium to the Oak Ridge Y-12 Plant.

METHODOLOGY   To accomplish the audit objective, we:

              •   reviewed DOE's Surplus Plutonium Disposition Final
                  Environmental Impact Statement dated November 1999, sections of
                  OMB Circular A-123, and DOE guidance on project management;
              •   interviewed DOE Headquarters, Albuquerque, RFFO, and Pantex
                  officials to understand their procedures for container management;
              •   reviewed the certification process of EM;
              •   reviewed prior audit reports and reviews related to container
                  activities; and,
              •   reviewed the Government Performance and Results Act of 1993 and
                  determined if performance plans and measures were established.

              We conducted the audit according to generally accepted government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. Accordingly, we assessed the
              significant internal controls and performance measures established
              under the Government Performance and Results Act of 1993 related to
              DOE's Type B container activities. There were no specific performance
              goals for the development and certification of containers for surplus
              fissile material. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. Computer processed data was not
              used, and therefore, we did not perform any tests on such data.

              We held an exit conference on November 6, 2000.




Page 11                                                  Scope and Methodology
                                                                      Report No. DOE/IG-0490


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
